Report No. DODIG-2012-027                December 1, 2011




           Deficiencies in Journal Vouchers That
       Affected the FY 2009 Air Force General Fund
            Statement of Budgetary Resources
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
DDRS                          Defense Departmental Reporting System
DDRS-AFS                      Defense Departmental Reporting System-Audited
                                 Financial Statements
DDRS-B                        Defense Departmental Reporting System-Budgetary
DFAS                          Defense Finance and Accounting Service
DoD FMR                       Department of Defense Financial Management Regulation
FIAR                          Financial Improvement and Audit Readiness
GAFS-R                        General Accounting Finance System-Rehost
SBR                           Statement of Budgetary Resources
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                                 DoD
USSGL                         U.S. Government Standard General Ledger
                                   INSPECTOR GENERAL

                                  DEPARTMENT OF DEFENSE

                                  4800 MARK CENTER DRIVE

                               ALEXANDRIA, VIRGINIA 22350-1500





                                                                                December 1, 2011

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: 	 Deficiencies in Journal Vouchers That Affected the FY 2009 Air Force General
           Fund Statement of Budgetary Resources (Report No. DODIG-2012-027)

We are providing this report for review and comment. The Defense Finance and Accounting
Service Columbus accountants prepared 6,177 journal vouchers, amounting to approximately
$2 trillion, to prepare the Air Force General Fund Statement of Budgetary Resources and
associated budgetary reports during FY 2009. Deficiencies in some of these journal vouchers
weakened the reliability of the Air Force General Fund Statement of Budgetary Resources and
did not fully support audit readiness, nor were all journal vouchers properly approved. In a
positive step toward improvement, DFAS issued a memorandum, “Air Force General Fund
Journal Vouchers (JVs),” April 18, 2011, establishing a journal voucher review team. We
considered management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. DFAS Columbus
comments were partially responsive. We revised Recommendation C.2 as a result of a change in
the “DoD Financial Management Regulation” in August 2011. Therefore, we request that
DFAS Columbus provide comments on the revised recommendation by January 3, 2012.

If possible, send a .pdf file containing your comments to auddpao@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mark Starinsky at
(614) 751-2931.




                                             Amy J. Frontz, CPA
                                             Principal Assistant Inspector General
                                               for Auditing
Report No. DODIG-2012-027 (Project No. D2010-D000FD-0085.000)                December 1, 2011


               Results in Brief: Deficiencies in Journal
               Vouchers That Affected the FY 2009
               Air Force General Fund Statement of
               Budgetary Resources
                                                          vouchers did not meet the requirements of the
What We Did                                               “DoD Financial Management Regulation”
During FY 2009, Defense Finance and                       (DoD FMR). As a result, DFAS did not ensure
Accounting Service (DFAS) Columbus                        the accuracy and reliability of the Air Force
accountants prepared 6,117 journal vouchers,              General Fund SBR, continuing to delay its audit
amounting to approximately $2 trillion, to                readiness. DFAS Columbus took corrective
produce the Air Force General Fund Statement              actions to address some of these weaknesses.
of Budgetary Resources (SBR) and other
budgetary reports showing the sources and                 What We Recommend
status of $201.6 billion of available general             The Director, DFAS Columbus, should
funds. Our objective was to review the journal            implement new policies and procedures in
vouchers DFAS prepared and used to produce                internal control over financial reporting to:
the FY 2009 Air Force General Fund SBR and
                                                             •	 properly support reconciliations with
other budgetary reports for proper support and
                                                                specific accounting transactions and
approval.
                                                                discontinue forcing agreement of
What We Found                                                   amounts to meet budgetary financial
DFAS Columbus did not always support journal                    reporting requirements;
vouchers related to the FY 2009 Air Force                    •	 include adequate detailed evidence with
General Fund SBR and other budgetary reports                    journal vouchers so that audit trails
with appropriate and sufficient audit evidence,                 comply with DoD FMR requirements
adequately detailed audit trails, or proper                     and properly support audit readiness
management approvals. Specifically, DFAS:                       efforts; and
                                                             •	 eliminate auto-approval of journal
    •	 made 1,680 journal vouchers, amounting
                                                                vouchers and manually approve all
        to $538 billion, to force agreement of
                                                                system-prepared journal vouchers,
        certain financial report totals and did not
                                                                including the appropriate level of
        provide adequate support, such as
                                                                approval required by DoD FMR
        transaction details or reconciliations;
                                                                thresholds.
    •	 did not maintain an adequate detailed
        audit trail for 89 sample journal                 Management Comments and
        vouchers amounting to $169.7 billion;             Our Response
        and
                                                          The Director, DFAS Columbus, mostly agreed
    •	 did not properly approve 870 journal
                                                          with our recommendations and began corrective
        vouchers amounting to $877.5 billion.
                                                          actions. Because of a change in the DoD FMR,
These deficiencies occurred because                       we revised Recommendation C.2. We request
DFAS Columbus did not have adequate                       that the Director, DFAS Columbus, provide
accounting processes to effectively reconcile the         comments on the revised recommendation.
related budgetary accounts or to document an              Please see the recommendations table on the
adequate detailed audit trail. Additionally,              back of this page.
DFAS Columbus policies for approving journal
                                                      i
Report No. DODIG-2012-027 (Project No. D2010-D000FD-0085.000)   December 1, 2011

Recommendations Table

         Management                 Recommendations        No Additional Comments
                                   Requiring Comment                Required
Director, Defense Finance and   C.2                        A.1.a, A.1.b, A.1.c, A.2,
Accounting Service, Columbus                               B.1.a, B.1.b, B.1.c, B.1.d,
                                                           B.2, C.1

Please provide comments by January 3, 2012.




                                          ii
Table of Contents
Introduction                                                                1

      Audit Objective                                                       1

      Background on Financial Statement Reporting                           1

      DFAS Officials Did Not Have Adequate Accounting Processes             4

Finding A. Forced Journal Voucher Adjustments Weaken the Reliability

of Financial Reporting                                                      5

       General Requirements for Journal Voucher Documentation               6

       Reimbursable Activity Adjustments Need Detailed Reconciliation

         of Budget Authority and Obligations                                7

       Standard Financial System Edit Discrepancies Corrected

         Without Adequate Reconciliation                                    8

       Nonidentification of Trading Partners Resulted in Recording

         Unverified Intragovernmental Accounts Receivable and Payable       8

       Detailed Transaction Support for Undistributed Disbursement

         and Collection Journal Vouchers Required Improvement              10 

       Accounts for Expiring and Canceling Appropriations Were Adjusted

         and Closed With Unresolved Abnormal or Unexpected Balances        11 

       Conclusion                                                          12 

       Recommendations, Managements Comments, and Our Response             13 

Finding B. Audit Trails Require Improvement to Support Audit Readiness     15 

       Requirements for Audit Trails                                       16 

       Adequately Documented Journal Voucher Audit Trails Needed           16 

       Incomplete Audit Trail From General Ledger to SBR                   17 

       Management Actions                                                  18 

       Conclusion                                                          18 

       Recommendations, Managements Comments, and Our Response             19 

Finding C. More Stringent Adherence to the DoD FMR Requirements

for Journal Voucher Approval Is Needed                                     20 

       Journal Voucher Approval Guidance                                   20 

       Standard Journal Voucher Approval Process at DFAS Columbus          21 

       Journal Vouchers Without Appropriate Supervisory Approval           22 

       Management Actions                                                  24 

       Conclusion                                                          24 

       Recommendations, Managements Comments, and Our Response             25 

Appendices
       A. 	Scope and Methodology                                           27 

               Use of Computer-Processed Data                              28 

               Use of Technical Assistance                                 28 

               Prior Coverage on Journal Voucher Adjustments               28 

       B. 	Air Force General Fund FY 2009 Combined Statement

              of Budgetary Resources                                       30 

Table of Contents (Cont’d)

Appendices (Cont’d)

      C. Air Force General Fund Budgetary Reporting          31 

      D. Journal Voucher Sample Items Selected for Testing   34 


Management Comments

      Defense Finance and Accounting Service Columbus        41 

Introduction
Audit Objective
Our objective was to review the journal vouchers DFAS Columbus prepared and used to
produce the FY 2009 Air Force General Fund SBR and other budgetary reports.
Specifically, we determined whether DFAS Columbus properly supported those journal
vouchers with sufficient and appropriate documentation and whether management
properly reviewed and approved the journal vouchers. See Appendix A for the scope and
methodology of our audit and prior audit reports on this subject. See Appendix B for a
reprint of the Air Force General Fund FY 2009 Combined SBR. In Appendix C, we
provide a discussion of Air Force budgetary reporting. Appendix D is a listing of the
journal vouchers we reviewed for this audit.

This audit supports the Air Force financial reporting goal of producing a reliable and
auditable SBR as one of its annual financial statements in accordance with the DoD
Financial Improvement and Audit Readiness (FIAR) guidance. The SBR reports the
sources and status of all funds available to the Air Force in completing its mission
annually. As part of its FIAR guidance, the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD, emphasized that achieving audit readiness related to
financial data used in its day-to-day business management was most important to the
Department. That emphasis included budgetary data, such as that presented in the SBR.

Background on Financial Statement Reporting
The Air Force has a primary responsibility to control the funds provided by Congress and
to comply with laws and regulations that limit how and when it uses its funds. The
Air Force must comply with legal limitations by year, by appropriation type, by
established programs, and by administrative allotments of funds to various organizational
levels. It must also comply with those legal limits as it commits, obligates, and expends
the funds.

The Air Force used budget execution reports for review and analysis to monitor its
compliance with laws and regulations and to report the status of its funds to executive
management and Congress. Reports used to manage and report Air Force budget
execution include ACCT RPT (M) 1002, “Appropriation Status by Fiscal Year Program
and Sub-accounts,” and Standard Form 133, “Report on Budget Execution and Budgetary
Resources.”

As one of the primary Military Departments in DoD, the Air Force is also required to
issue audited annual financial statements in accordance with the Chief Financial Officers
Act of 1990, as amended by the Government Performance and Results Act of 1993. One
of the required audited basic financial statements is the SBR. For the fiscal year ended
September 30, 2009, the Air Force reported $201.6 billion in total budgetary resources in
its General Fund SBR. The DoD Office of Inspector General disclaimed an opinion on
the Air Force FY 2009 General Fund financial statements, which included the SBR.

                                            1

Budget Accounting and Reporting
The Air Force and DFAS Columbus used a number of accounting and reporting systems 

as part of their internal control over financial reporting. They primarily operated and

maintained those systems used for budgetary reporting. Air Force and DFAS accountants

generally recorded budgetary events into original entry accounting systems using

transaction documents, such as Treasury warrants, OMB apportionment forms, 

commitments, purchase orders, receiving documents, invoices, disbursement vouchers, 

and checks. 


Air Force original entry accounting systems that initiate and record its transactions did

not apply the Treasury Financial Manual, U.S. Government Standard General Ledger

(USSGL) classifications that are required for financial reporting. Accordingly, 

DFAS Columbus transferred the transaction data from Air Force original entry

accounting systems to its General Accounting Finance System–Rehost (GAFS-R), 

assigning USSGL account numbers to the data during that process. In addition, 

DFAS Columbus used journal vouchers to record Air Force budget activity to GAFS-R 

when it could not directly interface data from an original entry accounting system. 


Air Force accounting personnel and DFAS Columbus accountants reviewed working

drafts of the SBR and the GAFS-R budget reports. They created journal vouchers

recorded in GAFS-R to make corrections identified during the reviews. DFAS Columbus

then transferred the USSGL amounts from GAFS-R to the official DoD reporting system, 

Defense Departmental Reporting System (DDRS). DFAS accountants produced the 

FY 2009 official Air Force budget reports, such as the 1002 and SF 133, using the

DDRS–Budgetary module (DDRS-B). They interfaced the accounting data in DDRS-B 

to a separate DDRS–Audited Financial Statements module (DDRS-AFS) and produced 

the FY 2009 official Air Force financial statements. DFAS accountants also made 

additional journal voucher adjustments in DDRS before the release of official financial

statements and budget reports. 


Significance of Journal Vouchers
Journal vouchers could represent an opportunity for management to bypass many of the
controls that exist in original entry accounting systems. Audit standards recognize their
importance by specifically requiring the testing of journal vouchers as part of a financial
statement audit. Audit standards state that auditors should perform substantive
procedures by examining journal entries and other adjustments that management makes
in preparing financial statements. Proper preparation, adequate support, and approval for
journal vouchers are important to ensuring that journal vouchers accurately record a
financial event. In addition, there must be a detailed audit trail leading to the transactions
supporting the journal voucher. Because unsupported journal vouchers may affect the




                                              2

integrity of accounting data, DFAS and Air Force are subject to DoD Regulation
7000.14 R, “DoD Financial Management Regulation” (DoD FMR), volume 6A, chapter
2, which sets forth requirements governing the creation, use, and required support of
journal vouchers.

During FY 2009, DFAS Columbus accountants prepared 6,177 journal vouchers, with a
value of approximately $2 trillion, 1 adjusting Air Force General Fund budgetary accounts
to produce statements of budgetary resources and related budgetary reports. There were
similar levels of journal voucher activity in the preceding and succeeding fiscal years.
DFAS prepared 6,730 journal vouchers, amounting to $2.4 trillion, in FY 2008 and 6,461
journal vouchers, also amounting to $2.4 trillion, in FY 2010.

DFAS Columbus accountants prepared journal vouchers both manually and using
automated software routines. DFAS Columbus referred to journal vouchers prepared by
automated software routines as system-prepared. System-prepared journal vouchers
include regularly recurring adjustments to record accruals for receipt of goods and
services, to reclassify certain maintenance costs between reporting groups, and to post
opening and closing entries. For FY 2009, there were 2,919 system-prepared journal
vouchers, with a debit value of $997.6 million.

The DoD FMR requires that journal vouchers be categorized using standard definitions.
Table 1 summarizes the journal vouchers as categorized by DFAS Columbus related to
FY 2009 Air Force budgetary reporting.

            Table 1. Classification of FY 2009 Budgetary Journal Vouchers
                                                  Number of
                                                   Journal           Value
                   Category                       Vouchers         (billions)
Identified errors and reasonableness checks            387             $61.8
Reclassification of accounts                         1,054             399.6
Balancing to internal reports                            1                0.3
Data call entry                                      1,117           1,002.5
Recognition of undistributed
  disbursements and collections                     1,252                 7.1
Other accruals and reversals                         2,096               64.7
Closing entries                                        253             532.1
Elimination balancing                                   17               11.6
  Total                                             6,177           $2,079.7




1
 Journal vouchers adjust USSGL accounts and are self-balancing, as their debit amounts must equal their
credit amounts. Value in the context of this report refers to the total of the applicable journal voucher debit
amounts without regard to what USSGL accounts are affected.

                                                       3
We refined this population to remove journal vouchers that were duplicative or reversed
within the same accounting period and stratified the refined population based on the
categories in Table 1. From the resulting universe of 4,225 journal vouchers totaling
$1.9 trillion, we selected a nonstatistical sample of 195 vouchers. We randomly selected
185 vouchers based on the size of each of the strata in the population and then selected
the 10 highest dollar journal vouchers remaining in the universe, resulting in 195 journal
vouchers selected for testing. We examined original documents to determine whether
DFAS Columbus properly supported and properly approved the journal vouchers. Using
our sample results, we reviewed the universe to identify similar journal vouchers and
quantified the total value of unsupported adjustments associated with the additional
journal vouchers that we identified. In this report, we discuss our sample results and also
apply the sample results to other DFAS-prepared journal vouchers with similar
discrepancies. See Appendix D for the list of journal vouchers tested.

DFAS Officials Did Not Have Adequate
Accounting Processes
We determined that internal control weaknesses in Air Force controls over financial
reporting existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
Program (MICP) Procedures,” July 29, 2010. We identified internal control weaknesses
as they relate to the audit objectives. Specifically, DFAS Columbus did not always
support journal vouchers and adequate accounting processes to effectively reconcile the
related budgetary accounts or to document an adequate detailed audit trail.
DFAS Columbus did not always obtain and reconcile the necessary transaction data as
required by the DoD FMR and did not adequately observe controls to properly approve
journal vouchers automatically prepared by GAFS-R (labeled “Auto-Approval Process”).
In addition, the DFAS Columbus journal voucher template did not include written
prompts in the “Description” input field to facilitate complete narrative explanations and
more specific documentation in the journal voucher file, such as data sources and points
of contact. We will provide a copy of the report to the senior official responsible for
internal controls at DFAS.




                                             4

Finding A. Forced Journal Voucher
Adjustments Weaken the Reliability
of Financial Reporting
DFAS Columbus accountants made forced journal voucher adjustments 2 for FY 2009
that lacked sufficient and appropriate documentation. DFAS Columbus officials did not
have assurance of the validity and accuracy of the following forced adjustments to
Air Force records:

    •	 8 journal vouchers, with a value of $85.9 million, to adjust the reimbursable
       obligations amount on line 8b of the SBR to match the reimbursable authority
       amount on line 3a of the SBR;

    •	 2 journal vouchers, with a value of $316 million, to adjust the total unexpended
       funds amount on the SBR to match the unexpended appropriations amount on the
       balance sheet;

    •	 4 journal vouchers, with a value of $3.3 billion, to change Air Force summary
       accounting records to match the amounts provided by the Government entities
       that purchased or sold the goods and services to Air Force entities;

    •	 1,437 journal vouchers, with a value of $6.8 billion, to make total disbursements
       and collections for Air Force appropriations match U.S. Treasury reports; and

    •	 229 journal vouchers, with a value of $527 billion, that adjusted and closed
       account balances for appropriated funds that were expiring and canceling, without
       research or analysis to resolve unexpected or abnormal balances.

These journal vouchers lacked sufficient and appropriate documentary evidence to
support the adjustment because DFAS Columbus did not have adequate accounting
processes in place to effectively obtain and reconcile the necessary transaction data as
required by the DoD FMR. As a result, unsupported accounting adjustments could
negatively affect the accuracy of the Air Force FY 2009 financial statements and budget
reports. Without improving the auditability of these journal vouchers, DFAS Columbus
will continue to cast doubt on the reliability of future financial statements and budget
reports. The forced accounting adjustments also impeded DoD progress toward auditable
financial statements, financial process improvement, and compliance with generally
accepted accounting principles.




2
 An adjustment that forces agreement of general ledger balances to another accounting source without
determining the transactional causes of the difference between the balances and if either is correct.

                                                    5

General Requirements for Journal
Voucher Documentation
DoD issued regulations that set out requirements for journal voucher documentation and
processes related to the preparation of journal vouchers. DoD FMR, volume 6A,
chapter 2, paragraph 020204.B, sets out DFAS’s responsibilities under reconciliation
requirements.

       1. DFAS shall establish procedures to ensure that all general ledger balances and other
       associated financial balances which require supporting subsidiary records are reconciled
       in accordance with DoD policy, when specifically required by OUSD(C) [Office of the
       Undersecretary of Defense (Comptroller)], with the amounts contained in the supporting
       records, including original source data.

                a. Many of the supporting subsidiary records for the financial balance
                amounts are established and maintained by DFAS. DoD Components
                shall participate in the reconciliation process for these subsidiary
                records when the original source documents or transactions that require
                research to complete the reconciliation are retained by the DoD
                Component.

                b. When subsidiary records are maintained by the DoD Component,
                DFAS shall establish a reconciliation schedule, mutually agreed to by
                the DoD Component and subject to approval by the OUSD(C), to
                reconcile the subsidiary records with the financial balance. The
                reconciliation of such supporting records with the financial balance is a
                joint responsibility of DFAS and the DoD Component.

       2. Unreconciled differences shall be investigated in accordance with applicable
       provisions of this Regulation and appropriate adjustments documented and processed to
       balance the general ledger amount with the amount of the subsidiary records.

       3. When unreconcilable differences between the general ledger and the subsidiary ledger
       records exceed $1 million, reconciliations shall be performed on a monthly basis in order
       to determine the cause of the differences and to take appropriate corrective actions to
       ensure the accuracy and integrity of the accounting system and monthly reports.

Additionally, the DoD FMR addresses documentation requirements for journal vouchers
in paragraph 020208.D. It states:

       Proper documentation, in hard copy, electronic form or a combination of both is
       necessary to support all journal voucher entries. This documentation shall contain
       sufficient information for the approving official and others, such as auditors, to clearly
       understand the reason for preparing the journal voucher, determine it is proper and
       accurate, and identify whether the journal voucher entries are supported or unsupported
       by subsidiary records. Information shall include applicable criteria to support the
       rationale for preparing the adjustment, specific expenditure or receipt accounts (if
       applicable), and the calculation of the dollar amount of the adjustment. Clear
       documentation of the JV preparer, approver(s), and reviewer must be kept with the JV
       documentation. Supporting documentation should be attached to a copy of the journal
       voucher.




                                                    6

Reimbursable Activity Adjustments Need Detailed
Reconciliation of Budget Authority and Obligations
DFAS Columbus accountants made forced journal voucher adjustments for FY 2009
without properly reconciling reimbursable budget activity. 3 Specifically, DFAS did not
support four sample journal vouchers we tested, with a value of $3.7 million, with
detailed transaction information to determine the proper adjustment amounts to
reimbursable authority and related obligations. DFAS did not investigate the difference
between reimbursable authority and reimbursable obligations to reconcile the reported
amounts and, instead, made these forced accounting adjustments at 2009 fiscal year-end
to decrease the reimbursable obligation amount on line 8b of the SBR to match the
reimbursable authority amount on line 3a of the SBR. Without appropriate supporting
documentation, the forced adjustment may have resulted in misstated reimbursable
obligations and authority. It also increased the risk that detailed transaction records did
not fully support the balances reported in the financial statements and budget reports.

DFAS Columbus and Air Force accountants should have identified the specific
transactions that reconciled the reported balances to make the appropriate adjustments.
When Air Force components accept orders on a reimbursable basis, they are required to
maintain accounting records for the reimbursable authority. In addition, the ordering
activity is required to maintain accounting records for the associated obligations. The
Assistant Secretary of the Air Force (Financial Management and Comptroller), Deputy
Assistant Secretary for Financial Operations, Air Force Accounting and Finance Office,
issued guidance requiring each component to review the status of its reimbursable orders.
The guidance stated that each component should conduct end-of-year research to identify
valid reimbursable authority and obligations. If authority or obligations for reimbursable
orders are no longer valid, the component must adjust those amounts in the original entry
system accounting records. The proper completion of this accounting process would
result in equal amounts reported for total earned reimbursable authority and total
reimbursable obligations in FY 2009 financial statements and budget reports.

Because of the deficiencies on our four sample items tested, we extended our audit
procedures to review the universe of journal vouchers for similar adjustments. In total,
                                         DFAS Columbus accountants prepared
     DFAS Columbus accountants
          eight journal vouchers (including our four
  prepared eight journal vouchers … 
 sample items) in FY 2009, amounting to
       in FY 2009, amounting to 
        $85.9 million, in DDRS-B, DDRS-AFS, and
     $85.9 million, … to force the 
     GAFS-R to force the amount of reimbursable
        amount of reimbursable
          obligations to agree with the amount of
     obligations to agree with the 
     reimbursable authority on the Air Force
   amount of reimbursable authority
     financial reports. DFAS accountants prepared
  on the Air Force financial reports.
 these journal vouchers without making the



3
  Reimbursable budget activity includes the authorized funding available through orders from others and
the obligations and expenditures incurred to provide goods and services to fill those customer orders.

                                                    7

detailed reconciliations between reimbursable authority and reimbursable obligations that
were shown on draft SF 133, “Report on Budget Execution and Budgetary Resources.”

Standard Financial System Edit Discrepancies
Corrected Without Adequate Reconciliation
DFAS Columbus accountants used journal vouchers without adequate supporting
documentation to correct a discrepancy between financial statements identified by a standard
                                            system edit check. Specifically, DFAS
      DFAS accountants resolved the         accountants made forced accounting
       difference of $316 million by        adjustments for FY 2009 when they prepared
    preparing the two journal vouchers      two journal vouchers, with a value of
   to force agreement between the SBR       $316 million, to adjust the total unexpended
           and the balance sheet.           funds amount on the SBR to match the
unexpended appropriations amount on the balance sheet. The DFAS pre-programmed
standard edit checks appropriately recognized that the total unexpended appropriations
reported in the SBR did not match the total unexpended funds reported in the balance
sheet. However, DFAS accountants did not investigate this difference or request
Air Force accountants to investigate and resolve why these totals did not agree. DFAS
accountants resolved the difference of $316 million by preparing the two journal
vouchers to force agreement between the SBR and the balance sheet. However, DFAS
did not investigate and document a reconciliation of the differences; and therefore, it did
not have assurance of the validity or auditability of the journal voucher adjustment
because it lacked sufficient supporting documentation and an adequate detailed audit trail
to any underlying transaction data.

During the audit, DFAS management acknowledged that forced adjustments for
unexpended balances have occurred. DFAS management stated that it was addressing
this issue and had reduced the forced adjustments to Air Force General Fund unexpended
balances from approximately $5 billion in FY 2008 to the $316 million above. The audit
did not include tests to verify this reduction.

Nonidentification of Trading Partners Resulted in
Recording Unverified Intragovernmental Accounts
Receivable and Payable
For FY 2009, DFAS Columbus accountants made forced journal voucher adjustments for
intragovernmental trading partner activity that lacked sufficient and appropriate
supporting documentation. Specifically, DFAS Columbus lacked assurance that four
journal vouchers, amounting to $3.3 billion, were valid. The journal vouchers changed
Air Force summary accounting records to match the amounts provided by the
U.S. Government entities that sold the goods and services to Air Force entities.

DFAS Columbus accountants prepared the journal vouchers without a detailed 

reconciliation of the trading partner balances because neither the Air Force nor DFAS

maintained adequate subsidiary records.




                                             8

We reviewed the supporting documentation for the four journal vouchers, totaling
$3.3 billion, in DDRS-AFS that DFAS prepared to adjust the account balances of the
buying agency to the account balances of the selling agency. For one of the four journal
vouchers, DFAS Columbus accountants used the balances of advances reported as
unearned by performing agencies without verifying their validity ($699 million in an
amended report) to record Undelivered Orders–Obligations, Prepaid (budgetary account
equivalent to prepayments and advances) in Air Force records. In a second example,
DFAS Columbus accountants used the balances reported by other DoD entities for
accounts receivable due from Air Force without verifying their validity to increase
Air Force Delivered Orders-Obligations, Unpaid (budgetary equivalent to accounts
payable) by $2.5 billion. DFAS accountants did not analyze or verify the balances
                                          reported by other agencies to determine whether
    Because of the lack of controls       original transactions supported the journal
    over intragovernmental trading        vouchers. In addition, neither the Air Force nor
  partner activity, the Air Force did     DFAS Columbus maintained other subsidiary
       not have assurance that its        records to enable reconciling intragovernmental
     financial reporting of related       receivable and payable amounts based on
  advances receivable and accounts        verified deliveries of goods and services by
         payable were reliable.           performing agencies. Because of the lack of
                                          controls over intragovernmental trading partner
activity, the Air Force did not have assurance that its financial reporting of related
advances receivable and accounts payable were reliable.

DoD reporting entities are required to report accurate intragovernmental account balances
in their financial statements, which ensures the appropriate eliminations in the
consolidated financial statements. Despite requirements to properly account for such
balances and to reconcile differences that exist at financial statement reporting dates, the
DoD FMR acknowledges that DoD component legacy accounting systems do not
adequately identify sales and purchases between DoD components and Government
agencies, which would allow components to meet those requirements.

The DoD FMR, volume 6B, chapter 13, states a presumption that, for intra-DoD accounts
receivable, revenue, and advances from others (unearned revenue), the amounts reported
by the seller are more accurate than the corresponding amounts reported by the buyer.
DFAS relied on that presumption when it prepared journal vouchers to adjust Air Force
intragovernmental account balances to match the balances provided by sellers. Although
DoD FMR allows for this presumption, its provisions do not provide assurance that such
seller balances are accurate without reconciliation to actual transaction activity.
DFAS Columbus needed better analysis and coordination with the Air Force components
to overcome the legacy system weaknesses that DoD acknowledges with trading partner
activity.

During the audit, DFAS management stated that the Air Force and DFAS identified
trading partner adjustments as unsupported in quarterly metric reports. DFAS
management also stated that the Air Force took corrective actions to match
Air Force-related buyer and seller transactions. Specifically, the actions include

                                             9

Air Force systemic improvements and other DFAS and Air Force plans to match
Air Force-related buyer and seller transactions. These actions were ongoing at the time
of our audit; and therefore, we could not test their effectiveness. DFAS should continue
to work with the Air Force to fully reconcile trading partner activity.

Detailed Transaction Support for Undistributed
Disbursement and Collection Journal Vouchers
Required Improvement
DFAS Columbus accountants made forced journal voucher adjustments for FY 2009 so
that Air Force and U.S. Treasury Fund Balance with Treasury amounts matched.
Specifically, our sample selection included 40 journal vouchers, amounting to
$73 million, that DFAS personnel prepared to match Air Force and U.S. Treasury totals.
We reviewed the documentation for these journal vouchers.

DFAS personnel prepared the 40 journal vouchers to adjust Air Force accounting records
for undistributed disbursements and collections. Undistributed disbursements and
collections are differences in cash disbursements and collections reported to the Air Force
and reported to the U.S. Treasury. Some of the differences are caused by the following:
cash items in transit between Air Force and U.S. Treasury records, cash items held in
suspense pending proper accounting classification, and cash items rejected during system
processing as not recorded in either Air Force or U.S. Treasury accounting records.
However, DFAS Columbus accountants did not prepare reconciliations that identified
undistributed cash items in detail; instead, they determined the journal voucher
adjustments as the difference between total disbursement and collection amounts reported
by appropriation to the Air Force by the U.S. Treasury.

Based on the results of our sample testing, we reviewed the FY 2009 journal voucher
universe for similar adjustments. DFAS Columbus accountants prepared 1,437 journal
vouchers (including the 40 in our sample), with a value of $6.8 billion, to make total
disbursements and collections for Air Force appropriations match U.S. Treasury reports.
DFAS accountants stated that the process for preparation of journal vouchers to record
undistributed disbursements and collections was consistent throughout FY 2009.

The DoD FMR, volume 6A, chapter 2, paragraph 020208, D.4, states that:

       Recognition of Undistributed Disbursements and Collections. Entries shall be made to
       adjust Fund Balance with Treasury, as reported, for the amount of supported
       undistributed disbursements and collections reported in the departmental expenditure
       system. The proper supporting documentation for this type of journal voucher consists of
       identifiable amounts that are in transit from other sources (such as DFAS or Federal
       agencies). Many amounts at the detailed transaction level are not available due to timing
       differences, and support consists solely of transmitted sums. In such a case, evidence
       available to support the journal voucher consists of summarized transmittal amounts.
       However, for audit trail purposes, the detailed transaction level amounts shall be obtained
       from the transmittal source when the amounts become available. Further evidence
       includes documentation of procedures and the allocation process used to apply
       undistributed disbursements and collections to accounts payable and accounts receivable,
       respectively.

                                                   10

DFAS prepared journal vouchers that forced agreement between the Air Force and
U.S. Treasury records without detailed transaction support or detailed reconciliation
because DFAS lacked adequate controls to identify and obtain all Air Force
disbursements and collections or to reconcile Air Force totals to U.S. Treasury totals at
the detailed transaction level. Without these controls, DFAS did not have assurance that
its related financial reporting for the Air Force was reliable. DFAS needed to improve its
processes for capturing the appropriate detailed transactions to reconcile Air Force funds
with U.S. Treasury balances.

Accounts for Expiring and Canceling Appropriations
Were Adjusted and Closed With Unresolved Abnormal
or Unexpected Balances
DFAS Columbus accountants adjusted FY 2009 expiring and closing Air Force
appropriations without sufficient and appropriate documentation. Specifically, we
reviewed 12 journal vouchers that adjusted expiring and closing appropriations. We
identified unexpected or abnormal account balances for 9 of the 12 expiring and
canceling appropriations that DFAS adjusted. DFAS accountants did not research and
analyze the unexpected or abnormal balances to resolve them.

For example, one of the journal vouchers that DFAS prepared for canceling
appropriations forced an unexpected balance of $128 million in the Undelivered
                                  Orders-Prepaid account to zero and increased the
   This journal voucher lacked    Delivered Orders–Paid account by that amount. This
     documentation to support     journal voucher lacked documentation to support the
    the conclusion that the Air   conclusion that the Air Force actually received the
   Force actually received the    prepaid goods or services. DFAS should have
    prepaid goods or services.    analyzed the $128 million balance to ensure that the
                                  Air Force received the related goods and services and
the prepaid balance was not refundable to the Air Force.

In another example, accountants at DFAS Columbus did not document any research or
analysis to explain an automated journal voucher that closed a canceling appropriation by
decreasing the canceled authority account by $347 million and increasing the
allotments-expired authority account by that amount. The closing of a canceling
appropriation would normally increase the amount of canceled authority. DFAS
accountants should have performed the necessary research to determine that the
$347 million was not an overexpenditure of funds.

The DoD guidance for the closing process, DoD FMR, volume 3, chapter 10, paragraph
100201.D., “Accounting Requirements for Expired and Canceled Accounts, Policy and
Procedures,” states that:

       Before an account closes/cancels, the affected DoD Component shall identify valid
       unliquidated obligations subject to cancellation to determine if appropriations are
       available for future adjustments or payments against such obligations. Also the DoD

                                                 11

       Component must confirm whether provisions for adequate resources have been made to
       pay for such obligations that will close/cancel with an account.

Further, the DoD 4th Quarter, “FY 2009 Financial Reporting Guidance,” Section 406,
“Canceled Receivables and Payables,” states that:

       The Federal Accounting Standards Advisory Board, U.S. Treasury and DoD FMR require
       that all DoD entities properly manage their canceled Accounts Receivable and Accounts
       Payable. As is the expectation with accounts receivable and payable from unexpired
       appropriations, accounts receivable and payable from canceled appropriations must also
       be fully supported by and reconciled to subsidiary records. These balances should be
       maintained in the subsidiary ledgers of the accounting systems where possible, or
       maintained offline where legacy systems do not provide the capability, and components
       must ensure that balances are properly reflected within the financial statements.

Based on our sample results, we reviewed the FY 2009 journal voucher universe for
additional adjustments that closed other expiring or canceling appropriations. DFAS
accountants prepared 229 journal vouchers, with a total of $527 billion (including our
12 sample items), for Department-level pre- and post-closing entries that adjusted
account balances for expiring and canceling funds at fiscal year-end. All 229 journal
vouchers, including our sample items, were system-prepared. To comply with DoD FMR
requirements and because the adjustment amounts related to expiring and canceling
appropriated funds were significant, DFAS Columbus needed to perform the necessary
research and analysis of unexpected or abnormal balances and properly document its
results when closing such accounts. Specifically, DFAS needed to ensure that such
balances were not the result of errors that would affect the reliability of current budgetary
reporting.

Conclusion
When DFAS Columbus accountants made journal voucher adjustments to Air Force
accounting records that forced agreement for financial reporting without reconciliation to
specific accounting events and transactions, they weakened the reliability of Air Force
financial statements and budget reports. Additionally, DFAS accountants may have
missed opportunities to advance Air Force General Fund SBR audit readiness efforts
because they did not make needed progress in fully explaining and reducing variances
between Air Force general ledger balances and associated detailed transaction amounts or
expected SBR balances.

When DFAS accountants prepared forced adjustments that gave the appearance of
compliant financial reporting despite weaknesses in internal control over financial
reporting, they did not fully support efforts toward financial improvement and audit
readiness, including compliance with generally accepted accounting principles. The
forced adjustments to Air Force accounting records without reconciliations or analysis of
source documentation did not comply with the DoD FMR policy that requires additional
effort when DFAS adjusts the accounting records. DFAS needed to improve its
processes so that journal voucher amounts were verifiable and forced adjustments were
eliminated.


                                                12

Recommendations, Management Comments, and
Our Response
A. We recommend that the Director, Defense Finance and Accounting Service
Columbus:

       1. Implement accounting procedures required by the “DoD Financial
Management Regulation,” volume 6A, chapter 2, paragraph 020204.B., for each of
the forced journal voucher adjustments discussed in this report. Those procedures
should require that:
             a. all general ledger and other associated financial balances that
require supporting subsidiary records are reconciled to those records;
               b. unreconciled differences are resolved by identifying specific
reconciling transactions to support appropriate journal voucher adjustments; and
               c. DFAS coordinate with Air Force entities when the Air Force
maintains the original source documents or transactions that require research to
reconcile the balances.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, agreed and has taken several actions to continue to
improve reconciliations in support of journal vouchers. He established a team in
February 2011, which implemented a standard operating procedure based on best
practices for reconciling abnormal balances. The procedure includes providing details of
account differences to the Air Force monthly for research and resolution. He also
prepared a memorandum of agreement with the Air Force, which was to be in effect for
FY 2011 year-end, to define the methodology and authority for DFAS to prepare journal
vouchers to reconcile unfilled orders and reimbursable obligations when detailed
transactions are unavailable.

Further, the Director stated that DFAS Columbus would continue to reduce the
unreconciled variance between budgetary and proprietary unexpended appropriations by
identifying the root causes, but until legacy systems are corrected, would continue to
record the journal vouchers necessary to bring these amounts into agreement for financial
reporting. He also stated that DFAS Columbus would continue to work with the
Air Force and its customers to identify proper trading partner amounts, but as required by
the DoD FMR, would make transactions to record seller-side balances in Air Force
financial statements until field accounting systems capture trading partner detailed
transactions for reconciliation. Beginning in FY 2012, DFAS Columbus and the
Air Force were to implement the Columbus Cash Accounting System reconciliation tool
in support of Fund Balance with Treasury adjustments. Management expects to
implement all of its planned corrective actions no later than February 1, 2012.




                                           13

Our Response
The actions implemented by DFAS Columbus management with regard to forced journal
vouchers to bring account balances into agreement without full and complete
reconciliations will continue to reduce the unreconciled variances. These actions are a
beginning to improvements needed to support audit readiness efforts for Air Force and to
continue implementing accounting processes that will resolve unreconciled differences
for financial reporting. The actions and plans described by management were responsive
and met the intent of our recommendation.

       2. Implement the accounting process required by the “DoD Financial
Management Regulation,” volume 3, chapter 2, paragraph 100201.D., which
requires that before preparing journal vouchers by automated programming
routines to close fiscal year-end balances, DFAS accountants research and adjust
unexpected and abnormal balances for expiring and canceling appropriated funds.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, agreed and implemented a standard operating procedure
that requires research of abnormal or unexpected account balances and includes notifying
the Air Force. Management’s review identifying unexpected and abnormal balances will
be analyzed monthly.

Our Response
DFAS Columbus management actions to capture unexpected or abnormal balances for
canceling years on a monthly basis and review and research such balances for resolution
were responsive and met the intent of our recommendation.




                                           14

Finding B. Audit Trails Require Improvement
to Support Audit Readiness
Audit trails to support the compilation of the FY 2009 Air Force General Fund SBR were
not adequate. Specifically:

    •	 DFAS Columbus accountants did not document an adequate audit trail for
       89 journal vouchers in our sample, amounting to $169.7 billion, which resulted in
       208 audit trail-related deficiencies. 4

    •	 DFAS Columbus personnel did not document a reconciliation that explained
       cumulative variances of $5 billion between the final general ledger balances in the
       GAFS-R system and the final general ledger balances in the DDRS-B reporting
       system.

The 89 journal vouchers in our sample that DFAS accountants prepared to compile the
SBR lacked an adequate audit trail because DFAS Columbus did not design its journal
voucher template to clearly require all the information needed to comply with the
DoD FMR. Specifically, the DFAS Columbus template did not include adequate written
prompts in the “Description” input field to facilitate complete narrative explanations and
more specific documentation in the journal voucher file, such as data sources and points
of contact.

The lack of adequate audit trails between the GAFS-R system and the DDRS-B reporting
system occurred because DFAS did not have a process to identify and document the
significant differences between the USSGL account balances in each system. During our
audit, DFAS accountants were unable to provide a detailed explanation for the
differences. As a result, DFAS did not fully support Air Force audit readiness efforts.

Following receipt of a preliminary copy of this report provided for discussion purposes,
DFAS personnel took action to research the $5 billion discrepancy between DDRS-B and
GAFS-R and provided supporting documentation that explained approximately
$4.858 billion of the $5 billion difference.




4
  The total identified deficiencies are greater than 89 journal vouchers because some journal vouchers
included more than one deficiency.

                                                    15

Requirements for Audit Trails
The DoD FMR, volume 6A, chapter 2, paragraph 020203, states that:

       B. DFAS. DFAS shall ensure that a complete and documented audit trail is maintained
       to support the reports it prepares. Supporting documents or images should be retained by
       the organization that translates the information into an electronic mode. Internal controls
       shall be in place to ensure that the transactions are:

                1. edited for accuracy and completeness.
                2. controlled from unauthorized access and use.
                3. identified, tracked, and controlled to ensure that the numbers, types,
                   and dollar amounts are complete.
                4. authorized and approved by duly designated officials.


Additionally, the following paragraph of the DoD FMR, volume 6A, chapter 2, paragraph
020204, prescribes responsibilities for reconciliation:

       Reconciliation. Many financial balances (e.g., general ledger proprietary and
       budgetary accounts, such as assets, liabilities, commitments, and undelivered orders)
       require supporting subsidiary records to validate the amount of the financial balance.
       Such subsidiary records shall be reconciled to financial balances in accordance with the
       policies, requirements, and frequencies prescribed in this Regulation.

Further, the DoD FMR, volume 6A, chapter 2, paragraph 020206.B, adds: “DFAS shall
validate reports to ensure that the reported amounts agree with the official accounting
records prior to release to DoD Components for review and approval or release to
external recipients.”

Adequately Documented Journal Voucher Audit
Trails Needed
DFAS Columbus journal voucher audit trails for the compilation of the FY 2009 SBR did
not comply with the requirements of DoD FMR, volume 6A, chapter 2. Specifically,
DFAS Columbus accountants did not document an adequate audit trail for 89 journal
vouchers in our sample that they prepared to support the SBR compilation. The
89 journal vouchers amounted to $169.7 billion and included the following 208 audit
trail-related deficiencies (some journal vouchers had multiple deficiencies):

   •	 65 deficiencies related to inadequate descriptions that resulted in insufficient
      information for approving officials to clearly understand the reason for preparing
      the journal voucher and determine whether it was proper and accurate;

   •	 46 deficiencies occurred because the journal voucher lacked a clear indication of
      the calculation methodology that DFAS accountants used;




                                                   16

    •	 12 deficiencies occurred because DFAS accountants prepared the journal voucher
       without an attached copy of the original journal voucher that was corrected; 5 and

    •	 85 deficiencies occurred because DFAS accountants did not adequately reference
       the supporting documentation. Specifically, DFAS accountants did not complete
       the narrative on the journal voucher so that it identified key supporting documents
       or their location and a point of contact.

The 89 journal vouchers in our sample that DFAS accountants prepared to compile the
SBR lacked an adequate audit trail. The audit trail was lacking because DFAS Columbus
did not design its journal voucher template to specifically require all the information
needed so DFAS accountants could comply with the DoD FMR. Specifically, the
DFAS Columbus template did not include adequate written prompts in the “Description”
input field to facilitate complete narrative explanations and more specific documentation
in the journal voucher file, such as data sources and points of contact.

DFAS Columbus accountants should always provide adequately detailed descriptions
when preparing journal vouchers to allow approving officials and others to readily
understand the purpose of the adjustment as well as any supporting documents. In
addition, they should attach clear documentation of detailed calculations supporting the
adjustment amount and adequately reference source documentation to strengthen the
detailed audit trail. These improvements will help DFAS comply with the DoD FMR
requirements and improve the compilation process for the Air Force General Fund SBR.

Incomplete Audit Trail From General Ledger to SBR
Audit trails to support the compilation of the FY 2009 Air Force General Fund SBR
needed improvement. Specifically, DFAS Columbus personnel lacked procedures to
reconcile and explain cumulative variances of $5 billion between the final general ledger
balances in the GAFS-R system and the final SBR financial statement balances in the
DDRS-B reporting system.

The $5 billion cumulative variance affected 12 USSGL accounts. DFAS Columbus
personnel were unable to explain the variances, such as identifying journal vouchers that
included adequate supporting documentation or identifying the specific reconciling
transactions.

The DoD FMR requires DFAS to reconcile financial reports from the subsidiary
accounting records to the financial statement balances and maintain a complete audit
trail. A complete audit trail is necessary to demonstrate the accuracy, completeness, and




5
  For correcting journal vouchers, a copy of the original journal voucher, documentation supporting the
correct amount, and a narrative explanation of how it is known that the original entry is incorrect and why
the correcting entry is more accurate must be attached.

                                                    17

timeliness of transactions. Further, DFAS is responsible for ensuring that it identifies
variances between its accounting and reporting systems and maintains evidence that it
performs an overall reconciliation.

During our audit, DFAS accountants were unable to provide details to explain the
differences or provide us with a detailed reconciliation. Because DFAS Columbus did
not provide a complete reconciliation between the two systems, we initially concluded
the Air Force did not have assurance that its general ledger balances reliably supported its
SBR reporting as of September 30, 2009. The Management Actions section below
discusses the DFAS response to the audit results.

The lack of a process to specifically identify and document account balances for
canceling appropriations that were retained in the GAFS-R system but not carried
forward to the DDRS-B reporting system contributed to DFAS’s inability to provide an
adequate audit trail. DFAS Columbus should program the accounting interface between
GAFS-R and DDRS-B to document the effect of these balances and support a
reconciliation between the two systems. With such a reconciliation process in place,
DFAS Columbus accountants would have been able to resolve a significant dollar amount
of the differences in the audit trail from GAFS-R to DDRS-B during our audit.

Management Actions
Following receipt of a preliminary copy of this report provided for discussion purposes,
DFAS personnel took action to research the $5 billion discrepancy between DDRS-B and
GAFS-R and provided supporting documentation that explained approximately
$4.858 billion of the $5 billion difference. After the issuance of the draft report, DFAS
completed the FY 2009 reconciliation that explained the remaining difference of
approximately $137 million.

Conclusion
DFAS needed to provide more support for Air Force General Fund SBR audit readiness
efforts. DFAS Columbus needed improved compliance with the DoD FMR because its
accountants, who prepared journal vouchers, and management, who approved those
vouchers, did not always ensure or enforce that the related audit trails met the existing
DoD FMR, volume 6A, chapter 2, requirements. In addition, journal vouchers lacked
one or more required elements of an adequate detailed audit trail.

DFAS Columbus should maintain a documented reconciliation between the final
GAFS-R general ledger balances and the DDRS-B general ledger balances.
DFAS Columbus accountants were unable to provide a complete reconciliation between
the balances in the GAFS-R general ledger and the DDRS-B general ledger as of
September 30, 2009. Their inability to reconcile the general ledgers was a material
weakness in internal control over financial reporting for FY 2009 and contrary to the
support that the Air Force needed to assert SBR audit readiness. In addition, DFAS
missed an opportunity to make needed progress in fully explaining and possibly reducing
variances between the Air Force general ledger balances and reported SBR amounts.


                                            18

Recommendations, Management Comments, and
Our Response
B. We recommend that the Director, Defense Finance and Accounting Service
Columbus:

       1. Modify the standard journal voucher template, with narrative prompts to
ensure that journal voucher documentation includes:

               a. a clear description explaining the reason for the journal voucher
that demonstrates that the journal voucher is proper and accurate;
               b. a clear indication of the calculation methodology used in
determining the journal voucher amounts;
               c. a narrative explanation for correcting journal vouchers that
includes comments about why the original entry is incorrect and why the correcting
entry is more accurate; and
               d. adequate references to supporting documentation, including
specific identification of documents, their location, and a point of contact.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, agreed and stated that DFAS Columbus created a
catalogue of standardized narratives that comply with the DoD FMR to assist accountants
in providing a complete explanation, preparation methodology, and standard
documentation when preparing journal vouchers.

Our Response
We have reviewed the catalogue of standard narratives developed by DFAS Columbus
and agree that the use of the catalogue together with the standard journal voucher
template will provide preparers strengthened support to more fully document the
necessary detailed audit trail. Management’s actions were responsive and met the intent
of our recommendation.

       2. Require a documented reconciliation between the systems at fiscal
year-end and explanation of differences that exist between general ledger accounts.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, agreed and stated that a manual reconciliation between
the GAFS-R trial balances and the DDRS trial balances would be performed by
February 1, 2012.

Our Response
After we issued our draft report, DFAS Columbus accountants provided additional
documentation to support a complete reconciliation of the trial balances as of
September 30, 2009. Management’s actions and plans were responsive and met the
intent of our recommendation.


                                           19

Finding C. More Stringent Adherence to the
DoD FMR Requirements for Journal Voucher
Approval Is Needed
DFAS Columbus needed to improve its documentation of supervisory review and
approval for Air Force journal vouchers posted in GAFS-R. Specifically,
DFAS Columbus processed:

   •	 698 journal vouchers, amounting to $77.9 billion, without management
      documenting its supervisory review and approval as required by the DoD FMR;
      and

   •	 172 journal vouchers, amounting to $799.6 billion, that management approved but
       not at the appropriate level required by the DoD FMR.

The 698 journal vouchers lacked documentation of appropriate supervisory review
because DFAS policy did not require supervisory approval of journal vouchers
automatically prepared by GAFS-R (labeled “Auto-Approval Process”). The 172 journal
vouchers lacked an appropriate level of supervisory approval because DFAS management
considered them routine beginning-of-year and end-of-year entries that did not warrant
higher level review and approval. As a result, DFAS accountants posted journal
vouchers into the accounting records without evidence of approval by the appropriate
management level. During the audit, the Director, DFAS Columbus, issued a
memorandum that established a review team to address the auto-approval of journal
vouchers prepared by GAFS-R.
Journal Voucher Approval Guidance
DoD FMR, volume 6A, chapter 2, requires operational internal controls to be in place to
ensure the proper recording of journal vouchers. The controls are to be in place whether
journal vouchers are prepared manually or by a routine in the accounting system. All
journal vouchers are to be sequentially numbered, maintained in a central location in
either hardcopy or in an electronic form, and annotated with name, title, and office
symbol of both the preparer and approving official. Additionally, the DoD FMR requires
that an appropriate management level authorize and approve journal vouchers at certain
dollar thresholds. Table 2 indicates which management level must approve journal
vouchers, depending on their dollar amount.

The DoD FMR also requires management at each level to maintain adequate internal
controls to ensure proper oversight of journal voucher preparation. In addition, a
quarterly quality and compliance review of a sample of journal vouchers by the Director
of Accounting and Finance is required within 30 days after DFAS Columbus submits
quarterly reports to USD(C)/CFO. This review is to determine whether journal vouchers
are correctly prepared and processed, adequately described and supported, and approved
at the proper managerial level.



                                           20

    Table 2. DoD FMR Supervisory Approval Threshold for Journal Vouchers
    Dollar Amount                        Supervisory Approval Level
    Less than $100 million               Branch Chief
    More than $100 to $500 million       Division Chief
    More than $500 million to $1 billion Director, Accounting and Finance,
                                         DFAS Columbus
    More than $1 billion                 Director, DFAS Columbus, or Designee

Standard Journal Voucher Approval Process
at DFAS Columbus
When DFAS Columbus accountants prepared and entered journal vouchers into the
accounting records for the Air Force in the GAFS-R, DDRS-B, and DDRS-AFS
accounting systems, the vouchers included the accountant’s digital signature. In some
instances, automated software routines in GAFS-R prepared journal vouchers, in which
case the accounting system annotated the vouchers as prepared by the “System.” For two
categories, the accounting system posted the system-prepared journal vouchers in
GAFS-R and annotated these journal vouchers as approved by “Auto-Approval Process.”
Figure 1 shows the journal voucher approval process.

                  Figure 1. Journal Voucher Approval Flowchart

          Accountant                     Branch Chief               Division Chief
                                                                     or Higher
               Accountant
            Prepares Journal                 Branch Chief
             Voucher in the                reviews Journal
           Accounting System                 Voucher for
                                               adequate
               Compiles draft                 supporting
              Journal Voucher               documentation
              and support and
                                                                      Division Chief or
                forwards to
                                                                    appropriate level of
               Branch Chief                Journal           Yes   management approves
                                           Voucher
                                                                     and signs Journal
                                         greater than
                                         $100 million?               Voucher. Journal
                                                                    Voucher posts in the
                                                                     Accounting system
                                                   No


                                      Branch Chief approves
                                        and signs Journal
                                        Voucher. Journal
                                       Voucher posts in the
                                        accounting system




                                         21

DFAS policy requires DFAS Columbus accountants to attach supporting documentation
to all journal vouchers and forward the packages to the Branch Chief. The Branch Chief
is responsible for ensuring that there is proper supporting documentation before
approving those vouchers in the accounting system. If the amount of the journal voucher
is greater than $100 million, the Branch Chief coordinates the approval of the vouchers,
either by electronic or physical signature, with the applicable level of management (see
Table 2). According to DFAS policy, the Branch Chief is to enforce the regulatory
requirement to review approvals within 10 workdays after financial reports are prepared.

Journal Vouchers Without Appropriate
Supervisory Approval
DFAS Columbus needed to improve its documentation of supervisory review and
approval for Air Force journal vouchers posted in GAFS-R. Specifically,
DFAS Columbus processed 698 journal vouchers, amounting to $77.9 billion, for which
                                          management had not documented its
     Specifically, DFAS Columbus
                                          supervisory review and approval as required
    processed 698 journal vouchers,
                                          by the DoD FMR. These were system-
     amounting to $77.9 billion, for
                                          prepared journal vouchers that were
      which management had not
                                          automatically posted in GAFS-R with the
   documented its supervisory review
                                          notation “Auto-Approval Process.”
    and approval as required by the
                                          Additionally, DFAS accountants processed
               DoD FMR.
                                          172 journal vouchers, amounting to
$799.6 billion, that management approved, but not at the appropriate level as required by
the DoD FMR.

DFAS personnel did not document appropriate supervisory review of the 698 journal
vouchers because DFAS policy did not require supervisory approval of journal vouchers
automatically prepared by GAFS-R and labeled “Auto-Approval Process.” DFAS
personnel did not obtain the appropriate level of supervisory approval for 172 system-
prepared journal vouchers because DFAS management considered them routine entries.

No Approval Obtained
DFAS Columbus accountants prepared and recorded journal vouchers that lacked any
evidence of supervisory approval. We reviewed 195 randomly selected journal vouchers
posted in GAFS-R and identified 19 journal vouchers that did not include appropriate
details of supervisory review and approval in compliance with the DoD FMR guidance.
The journal vouchers lacked proper authorization because they were auto-approved by
the system. Based on these results, we performed a review of the remaining journal
vouchers in the universe and identified 679 additional auto-approved journal vouchers.
Combined, these 698 auto-approved journal vouchers totaled $77.9 billion. These journal
vouchers consisted of two types of adjustments. One type was to accrue accounts payable
received by electronic interface and the second type was to reallocate funding between
subactivity groups.



                                           22

DFAS should not approve journal vouchers through automated routines and should
require review and approval by an appropriate supervisor. Although the
DFAS Columbus Division Chief signed a memorandum each month certifying that the
DFAS departmental accounting division processed journal vouchers equal in amount to
the interfaced accrued accounts payable, that certification was not a specific approval of
each journal voucher as required by the DoD FMR. Additionally, DFAS Columbus
policy did not specifically require that a supervisor review and approve the GAFS-R
system-prepared journal vouchers in accordance with the DoD FMR. Journal vouchers
auto-approved by GAFS-R do not comply with the DoD FMR guidance, which requires
that each journal voucher contain the name, title, and office symbol of the approver.

Approved at Incorrect Level
DFAS Columbus also prepared and recorded system-prepared journal vouchers that
lacked approval by the required management level. A higher supervisory level of
approval was required because the total journal voucher amount exceeded the DoD FMR
threshold of $100 million for Branch Chief approval.

Our nonstatistical sample included journal vouchers that DFAS Columbus management
approved at a lower level than required by the DoD FMR guidance. Specifically, there
were seven journal vouchers, totaling $215.4 billion, approved by the DFAS Columbus
                                            Departmental Accounting Branch Chief that
  Specifically, there were seven journal    required approval by a higher supervisory
     vouchers, totaling $215.4 billion,     level. The seven system-prepared journal
     approved by the DFAS Columbus          vouchers either established opening FY 2009
    Departmental Accounting Branch          balances from the accounts that carried
     Chief that required approval by a      forward from the prior fiscal year or closed
         higher supervisory level.          out current FY 2009 balances at fiscal year­
                                            end in accordance with Treasury Financial
Manual guidance. The Branch Chief should have recognized that even though these
entries were system-prepared and regarded as routine, they required approval by a higher
management level.

We reviewed the journal voucher universe for similar instances of these system-prepared
entries posted in the system and identified an additional 165 journal vouchers, amounting
to $584.2 billion, that DFAS had not approved at the appropriate level of
DFAS Columbus management. DFAS personnel did not obtain the appropriate level of
supervisory approval for 172 journal vouchers because DFAS management considered
them routine beginning-of-year and end-of-year entries.

As shown in Table 3, DFAS did not appropriately approve $877.5 billion in journal
vouchers. DFAS Columbus management did not comply with the DoD FMR guidance
and did not ensure the review and approval of all journal vouchers posted into the
accounting records.




                                            23

      Table 3. Journal Vouchers Lacking Appropriate Supervisory Approval
                                   ($ billions)
                                               Additional
       Type               Sample            Universe   Items
     of Entry              Items                Identified          Total
                     Amount Count Amount                Count  Amount Count
 No Approval             $9.2      19         $68.7        679   $77.9    698
 Not Approved at        215.4       7         584.2        165   799.6    172
 Appropriate Level
   Total               $224.6      26        $652.9        844  $877.5    870

Management Actions
During the audit, the Director, DFAS Columbus, issued a memorandum that established a
review team to address GAFS-R journal voucher approval. The memorandum required
the review team to work until corrective actions were completed. The Director also
required the review team to provide DFAS senior leadership with weekly progress
updates. DFAS management provided additional information on its actions regarding
journal voucher approval in their comments on a draft of this report (see pages 25
and 26).

Conclusion
DFAS Columbus management did not always adhere to the DoD FMR requirements for
the approval of journal vouchers posted into the Air Force accounting records. There was
no assurance that the required level of DFAS Columbus management reviewed and
approved 870 journal vouchers, amounting to $877.5 billion, or that the DFAS Director
of Accounting and Finance performed the required review of these adjustments within the
prescribed 30-day period after quarterly reports were submitted to USD(C)/CFO. By
ensuring the appropriate level of review and approval for all journal vouchers,
DFAS Columbus management would improve its oversight and ensure the propriety of
accounting adjustments posted into the accounting records and improve its compliance
with the DoD FMR guidance.

DFAS Columbus management issued a memorandum that directed a review team to
review journal vouchers automatically prepared and approved by GAFS-R. The DFAS
review team should consider our audit results and recommendations as it completes its
analysis of the Air Force General Fund vouchers.




                                          24

Recommendations, Management Comments, and
Our Response
Revised Recommendation
As a result of a change to the DoD FMR, volume 6A, chapter 2, in August 2011, we
revised draft Recommendation C.2 to be consistent with the revised regulation.

C. We recommend that the Director, Defense Finance and Accounting Service
Columbus:

       1. Eliminate the “Auto-Approval Process” routine in the General
Accounting Finance System-Rehost to ensure that each journal voucher posted into
the accounting system bears evidence of actual supervisory review and approval.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, partially agreed, stating that DFAS Policy and Support
reviewed the auto-approved journal voucher forms discussed in our report and concluded
that those adjustments that reallocated funding between subactivity groups were not
journal vouchers based on their interpretation of the DoD FMR. In addition, the Director
stated that it was not cost-effective to revise the journal voucher module in GAFS-R.
However, DFAS has developed a mass approval memorandum for these adjustments
since they are recorded in the journal voucher log. The Director further stated that the
second type of auto-approved journal voucher forms discussed in our report–journal
vouchers that accrued accounts payable–would be removed from the auto-approval
process and undergo manual supervisory review.

Our Response
DFAS Columbus recorded auto-approved adjustments to reallocate funding between
subactivity groups on standard journal voucher forms. Whether we agree or disagree that
such adjustments are technically journal vouchers was not the underlying issue related to
our recommendation. Our recommendation is to ensure that adjustments made to original
transaction activity in the accounting system are properly controlled by an appropriate
official designated by management.

DFAS Columbus should control all adjustments to financial data when those adjustments
are its responsibility. The results of any adjustments to financial data at the departmental
level under DFAS Columbus oversight should be controlled for propriety whether
entered by automated software or manual processes.

We considered management’s plans to implement the mass approval memorandum for
these auto-approved adjustments and the change to the DoD FMR, volume 6A, chapter 2,
effective August 2011. We determined that the mass approval memorandum represents
an appropriate supervisory review at this level of accounting. Together with the change


                                             25

to perform manual supervisory review for the adjustments to accrue accounts payable,
management’s actions are responsive and met the intent of our recommendation.

       2. Verify that the quarterly quality and compliance review performed by the
Director of Accounting and Finance within 30 days after Defense Finance and
Accounting Service Columbus submits quarterly reports to the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD, includes system-prepared
journal vouchers to confirm that approval thresholds were met.

Defense Finance and Accounting Service Columbus Comments
The Director, DFAS Columbus, partially agreed, but maintained that the auto-approved
and system-generated adjustments on journal voucher forms were not journal vouchers
based on the DFAS interpretation of the DoD FMR. The Director stated that these
adjustments were prepared on journal voucher forms strictly because of limitations in the
legacy accounting systems.

Our Response
We revised the recommendation because the DoD FMR, volume 6A, chapter 2, 

paragraph 020208, requirements changed after we issued our draft audit report. 

Specifically, the journal voucher review requirements changed from annually to

quarterly, and from 10 days after the financial statements are prepared to 30 days after the 

submission of quarterly financial statements to USD(C)/CFO. 


Considering the revisions to the DoD FMR, we request that DFAS Columbus

management reconsider its response to the recommendation and provide additional

comments on this report. To meet the intent of our recommendation, the comments

should demonstrate that all adjustments will be included in the required review by the 

Director for Accounting and Finance in accordance with the applicable DoD FMR

threshold requirements. 





                                             26

Appendix A. Scope and Methodology
We conducted this performance audit from January 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We performed the audit to determine whether the journal vouchers recorded by
DFAS Columbus to produce the FY 2009 Air Force General Fund Statement of
Budgetary Resources and other budgetary reports were adequately supported and
properly approved. We conducted the audit work at DFAS Columbus. We interviewed
personnel, performed walkthroughs of the journal voucher process, obtained the universe
of journal vouchers posted into the Air Force accounting records, and reviewed
supporting documentation for the adjusting entries.

The total universe of journal vouchers related to the Air Force FY 2009 Statement of
Budgetary Resources consisted of 6,177 vouchers amounting to $2.08 trillion.
DFAS Columbus extracted the journal vouchers from the following accounting and
reporting systems: General Accounting and Finance System–Rehost (GAFS-R), Defense
Departmental Reporting System–Budgetary (DDRS-B), and Defense Departmental
Reporting System–Audited Financial Statements (DDRS-AFS). We refined the universe
to remove journal vouchers that were duplicates or reversed within the same accounting
period and, therefore, did not impact the year-end Statement of Budgetary Resources. As
shown in Table A, refining the universe removed 1,952 entries amounting to $133 billion,
leaving 4,225 journal vouchers, totaling $1,947 billion in adjustments, for selection of our
sample and testing.

              Table A. Journal Voucher Universe and Sample Selection
                                    ($ billions)

Universe         GAFS-R              DDRS-B           DDRS-AFS           Universe Total
             Amount       No.      Amount     No.    Amount      No.    Amount       No.
Original     $1,998      6,026        $2       99      $79       52      $2,080     6,177
Refined       1,941      4,111         2       99        4       15       1,947     4,225
Sample         622         136         1       44        4       15         667       195

We selected a nonstatistical sample of 195 vouchers. We randomly selected
185 vouchers based on the size of each of the strata in the population and then selected
the 10 highest dollar journal vouchers remaining in the universe, resulting in 195 journal
vouchers selected for testing. We examined original documents to determine whether
DFAS Columbus properly supported and approved the journal vouchers. Using our
sample results, we reviewed the universe to identify similar journal vouchers and
quantified the total value of unsupported adjustments associated with the additional

                                            27

journal vouchers that we identified. In this report, we discuss our sample results and also
apply them to other DFAS-prepared journal vouchers with similar discrepancies.

Use of Computer-Processed Data
We relied on computer-processed data from GAFS-R, DDRS-B, and DDRS-AFS for this
report. DFAS posted journal vouchers related to the FY 2009 Air Force General Fund
Statement of Budgetary Resources in these systems. We substantiated the universe of
journal voucher transactions provided by DFAS by reperforming the queries to identify
the journal vouchers through our independent access to those systems and a comparison
of those results to the database received from DFAS. We did not find any differences
between our queries and the DFAS databases.

We relied on the universe of journal voucher transactions provided by DFAS to select a
sample of items for testing. We tested the journal vouchers in our sample selection by
corroborating the data within the system through inquiry, inspection of the hardcopy
vouchers and supporting documents, and re-performance and recalculation as applicable.
For certain exceptions noted in our sample item testing, we relied on the universe of
journal voucher transactions to quantify the effect of all items in the universe with the
same attributes as our exception items. Based on this work, we concluded that the
journal voucher data were sufficiently reliable and accurate to accomplish our audit
objectives for our review of the journal vouchers related to the FY 2009 Air Force
General Fund Statement of Budgetary Resources.

Use of Technical Assistance
We obtained technical assistance from our Quantitative Methods Division in developing
the sample design for our audit. We stratified the universe of journal vouchers based on
category, and determined specific sampling sizes based on the size of each stratified
population. The Quantitative Methods Division assisted the auditors in selecting a
nonstatistical sample of 185 journal vouchers from the stratified populations based on the
size of the stratum. The auditors increased the sample to include the 10 highest dollar
journal vouchers remaining in the universe to ensure adequate dollar coverage of the
review.

Prior Coverage on Journal Voucher Adjustments
During the last 5 years, the DoD Inspector General (DoDIG) and the Air Force Audit
Agency (AFAA) have issued nine reports discussing adjusting journal vouchers
impacting the Air Force financial statements. Unrestricted DoDIG reports can be
accessed at http://www.dodig.mil/audit/reports.

Unrestricted Air Force reports can be accessed over the Internet from .mil domains by
those with Common Access Cards at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41.




                                            28

DoD IG
DoDIG Report No. D-2011-007, “Independent Auditor’s Report on the Air Force
General Fund FY 2010 and 2009 Basic Financial Statements,” November 9, 2010

DoDIG Report No. D-2009-044, “Defense Finance and Accounting Services Indianapolis
Compilation of Other Defense Organizations General Fund Financial Data,” January 23,
2009

DoDIG Report No. D-2008-084, “Journal Vouchers Processed by the Defense Financial
and Accounting Service for the Navy Working Capital Fund,” April, 25, 2008

DoDIG Report No. D-2008-055, “Internal Controls over FY 2007 Army Adjusting
Journal Vouchers,” February 22, 2008

DoDIG Report No. D-2008-008, “Defense Finance and Accounting Service Columbus
Process for Consolidating and Compiling Other Defense Organizations Financial Data,”
October 30, 2007

DoDIG Report No. D-2007-058, “Controls Over the Army, General Fund, Fund Balance
With Treasury Journal Voucher Adjustments,” February 8, 2007


AFAA
Air Force Audit Agency Report No. F2007-0010-FB3000, “Depot Maintenance Activity
Group Manual Voucher Oversight,” June 8, 2007

Air Force Audit Agency Report No. F2007-0007-FB3000, “Deport Maintenance Activity
Group Manual Adjustments,” April 20, 2007

Air Force Audit Agency Report No. F2007-0006-FB3000, “Air Force Working Capital
Fund Fiscal Year 2005 Accounting Adjustments,” March 15, 2007




                                         29

Appendix B. Air Force General Fund
FY 2009 Combined Statement of
Budgetary Resources




                    30

Appendix C. Air Force General Fund
Budgetary Reporting
Statement of Budgetary Resources
The SBR and related disclosures provide information about the source of budgetary resources
as well as their status at the end of the period. It is the only financial statement
predominantly derived from an entity’s budgetary information in accordance with budgetary
accounting rules. The statement presents four sections of budgetary information.

   1.	 Budgetary Resources reports the total budgetary resources available to the reporting
       entity. Budgetary resources includes new budget authority, unobligated balances at
       the beginning of the year and transferred in and out during the year, spending
       authority from offsetting collections, recoveries of prior-year unpaid obligations, and
       any adjustments to these resources.

   2.	 Status of Budgetary Resources displays the status of the available resources as of the
       applicable year-end. It consists of the obligations incurred, the unobligated balances
       at the end of the year that remain available, and unobligated balances at the end of the
       year that are unavailable except to adjust or liquidate prior-year obligations.

   3.	 Change in Obligated Balance displays the balance of obligated funds carried forward,
       new obligations incurred, and obligations paid during the year.

   4.	 Net Outlays reports disbursements net of offsetting collections. The outlays are to
       agree with, and be reconciled to, the agency outlay totals reported in the Budget of
       the United States Government.

Other Budgetary Reports
Financial reporting includes other significant internal or external financial reports as well
as annual financial statements. Other significant financial reports are any financial
reports that could have a material effect on a significant spending, budgetary, or other
financial decision of the agency and those used to determine compliance with laws and
regulations on the part of the agency. The Air Force determines the scope of financial
reports that it considers significant. In addition to the annual financial statements,
significant reports include: quarterly financial statements; trial balances at the operating
division or program level; budget execution reports; reports used to monitor specific
activities, such as special revenues, receivables, or liabilities; and reports used to monitor
specific compliance with laws and regulations. During FY 2009, the Air Force produced
other budgetary reports, including the quarterly SBR, and budget execution reports, such
as the SF 133, “Report on Budget Execution and Budgetary Resources,” Report 1002,
“Appropriation Status by Fiscal Year Program and Sub-accounts,” and Report DD725,
“Report on Reimbursements.” The system of internal control over financial reporting
includes review and analysis of such reports, which can result in adjustments and
corrections of financial data as discussed below under Adjusting Journal Vouchers.


                                              31

Internal Control Over Financial Reporting
Air Force financial management is responsible for establishing and maintaining internal
control to achieve the objectives of effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations. In accordance with
Office of Management and Budget, Circular A-123, “Management’s Responsibility for
Internal Control,” December 21, 2004, management must take systematic and proactive
measures to assess and document internal control over financial reporting, identify
needed improvements, take corrective action, and report annually on internal control
through management assurance statements. The Federal Financial Management
Improvement Act of 1996 and Office of Management and Budget, Circular No. A-127,
“Financial Management Systems,” January 9, 2009, also instruct agencies to maintain an
integrated financial management system that complies with Federal systems
requirements, Federal Accounting Standards Advisory Board Standards, and the USSGL
at the transaction level.
Internal control over financial reporting is a process designed to provide reasonable
assurance regarding the reliability of financial reporting. Reliability of financial
reporting means that management can reasonably make the following assertions:

       • 	 All reported transactions actually occurred during the reporting period and all
           assets and liabilities exist as of the reporting date (existence and occurrence);

       • 	 All assets, liabilities, and transactions that should be reported have been
           included and no unauthorized transactions or balances are included
           (completeness);

       • 	 All assets are legally owned by the agency and all liabilities are legal
           obligations of the agency (rights and obligations);

       • 	 All assets and liabilities have been properly valued, and where applicable, all
           costs have been properly allocated (valuation);

       • 	 The financial report is presented in the proper form and any required
           disclosures are present (presentation and disclosure);

       • 	 The transactions are in compliance with applicable laws and regulations
           (compliance);

       • 	 All assets have been safeguarded against fraud and abuse; and

       • 	 Documentation for internal control, all transactions, and other significant
           events is readily available for examination.



                                            32

A business process is a sequence of events, consisting of the methods and records used to
establish, identify, assemble, analyze, classify, and record (in the general ledger) a
particular type of transaction. Examples include:

       • Cash receipts and disbursements,
       • Collection of accounts receivable,
       • Purchase and sale of inventory,
       • Customer billing, and
       • Payroll.

A line item or account-related accounting application consists of the methods and records
established to report an entity’s recorded transactions and to maintain accountability for
related assets and liabilities. Line item or account-related processes consist of methods to
report transactions and demonstrate accountability. Examples include:

       • Fund Balance with Treasury,
       • Accounts receivable,
       • Inventory control,
       • Property and equipment, and
       • Accounts payable.

Financial Improvement and Audit Readiness
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO), has had a Financial Improvement and Audit Readiness (FIAR) plan in
place since 2005. The FIAR plan provides direction to the Military Departments and
other Defense agencies regarding achieving financial statement audit readiness and
reports significant goals and milestones for the Department to accomplish that goal.

On May 15, 2010, USD(C)/CFO issued “Fiscal Year 2010 Financial Improvement and
Audit Readiness Guidance,” a document establishing a revised emphasis for near-term
direction. The Comptroller emphasized achieving audit readiness related to financial data
most important to the Department in its day-to-day business management. That emphasis
included budgetary data, such as that presented in the SBR.

The FIAR guidance sets forth a requirement that components must evaluate their internal
controls against the key control objectives in the Government Accountability
Office/President’s Council on Integrity and Efficiency, “Financial Audit Manual,”
July 25, 2008. An example of a key control objective related to the SBR is that all
reported obligations represent valid orders that will require future payment. In addition,
the components must determine the availability of key supporting documents related to
financial statements and line items in those statements. Examples of key supporting
documents related to the SBR are reimbursable agreements, purchase orders, Military
Interdepartmental Purchase Requests, and so on, to support unpaid obligations
(undelivered orders).



                                              33

Appendix D. Journal Voucher Sample Items
Selected for Testing
                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
J2009004242                    X                           X                            X
J2009013640                    X                                                        X
J2009013626                    X                                                        X
J2009003399                    X                                                        X
J2009009456                    X            X                                           X
J2009003811                    X                                                        X
J2009013788                    X                                                        X
J2009013629                    X                                                        X
J2009013786                    X                                                        X
J2009013781                    X                                                        X
J2009000256                    X            X              X                            X               XX
J2009000361                    X            X              X                            X
J2009009985                    X            X              X                            X                X
J2009002044                    X                           X                X           X
J2009010880                    X            X              X                            X                X
J2009000249                    X            X              X                            X
J2009000352                    X            X              X                            X
J2009000464                    X            X              X                            X
J2009004112                    X            X              X                            X                X
J2009014585                    X            X              X                            X                X
J2009013310                    X            X              X                            X                X
J2009010008                    X            X              X                            X                X
J2009007617                    X            X              X                            X                X
J2009000488                    X            X              X                            X               XX
J2009000498                    X            X              X                            X
J2009012107                    X            X              X                            X                X
J2009000475                    X            X              X                            X
J2009014588                    X            X              X                            X                X
J2009013319                    X            X              X                            X                X
J2009000241                    X            X              X                            X
J2009004225
J2009010022                    X            X              X                            X                X

                                              34

                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
J2009013285                    X            X              X                            X                X
J2009008753                    X            X              X                            X                X
J2009005527                    X            X              X                            X                X
J2009015441                    X            X                                           X
J2009015444                    X            X                                           X
J2009015447
J2009015542                    X            X              X                X           X
J2009015545                    X            X              X                            X
J2009015637                    X            X              X                X           X
J2009015640                    X            X              X                X           X
J2009015641                    X            X                                           X
J2009016013                    X            X              X                X           X
J2009016014                    X            X              X                X           X
J2009012475
J2009014134
J2009014150                    X                           X                            X
J2009015491                    X            X                               X           X
J2009003405                    X            X                               X
J2009000001                    X            X
J2009002103       X
J2009007423
J2009015636
J2009008126                    X            X                                           X
J2009011179
J2009015464                    X            X                                           X
J2009005660
J2009015496
J2009002076                    X                                                        X
J2009007043       X
J2009012348
J2009011520       X
J2009011558                    X            X
J2009010434
J2009003165                    X            X                                           X
J2009015055       X
J2009004185


                                              35

                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
J2009011157
J2009002099       X
J2009009163
J2009009283                    X                                                        X
J2009006821                    X            X                                           X
J2009015041       X
J2009016011
J2009015176                    X            X              X                            X
J2009005840       X
J2009015169       X
J2009009277       X
J2009004540       X
J2009001953       X
J2009004537       X
J2009004383       X
J2009004548       X
J2009013541       X
J2009010116       X
J2009010319       X
J2009008012       X
J2009001669       X
J2009008019       X
J2009009293       X
J2009007005       X
J2009011251       X
J2009004567       X
J2009011191       X
J2009007866       X
J2009003226       X
J2009004386       X
J2009013921       X
J2009009256       X
J2009013936       X
J2009013516       X
J2009012482       X
J2009006843       X

                                              36

                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
J2009009284       X
J2009012329       X
J2009001650
J2009000116                    X            X              X                X           X                X
J2009014971
J2009005976                    X            X
J2009000119                    X            X              X                X           X                X
J2009014343                    X            X              X                            X                X
J2009014617
J2009014972
J2009014314                    X            X              X                            X                X
J2009014310                    X            X              X                            X                X
J2009015903       X
J2009015823       X
J2009015906       X
J2009015709       X
J2009015800       X
J2009015925       X                                                                                     XX
J2009015728       X                                                                                     XX
J2009015706       X                                                                                     XX
J2009015746       X
J2009015712       X
   1868521                     X            X                                           X
   2320946
   3172169                     X            X                                           X
   1992643
   3172174                     X            X                                           X
   3172176                     X            X              X                            X
   1427125
   3172173                     X            X                                           X
   1986799                     X            X
   3172152                     X            X                                           X
   1870619                     X            X                                           X
   1870621                     X            X                                           X
   1870625                     X            X                                           X
   1870637                     X            X                                           X

                                              37

                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
   1870638                     X                                                        X
   2116149
   2116150
   2116151
   2116169
20090408782       X
20090408783       X
    2496690                    X            X              X                            X
    1871216       X
 2961450                       X                           X                            X
 2260825
 1671700                       X                           X                            X
 2961323
 1671683                       X                                                        X
 1671701                       X                                                        X
 2961300
 2496630                       X                                            X           X
 2818422
 2321005
 1320695          X
 1671479          X
 2818562          X
 1872296
20090161369
 1871270
 1871330
 1871342                       X                           X                            X
 1871370                       X            X                                           X
 1871371                       X            X                                           X
 1872297                       X                           X                            X
  64904           X
  64905           X
  65067           X
  65068           X
  64934           X
  65033           X

                                              38

                                                                                                    Inadequate
                                                 Audit Trails Weakness                               Approvals
                                                      (Finding B)                                   (Finding C)
 Journal        Forced
 Voucher        Entries      Overall                   Audit Trail Deficiency                       No Approval
  (JV)        (Finding A)     Audit                                                                      (X)
   ID                                                                    Copy of    Reference     Not Approved at
                              Trail
                                                      Calculation        Original   to Support    the Proper Level
                            Exception
                                        Inadequate    Methodology          JV           Not             (XX)
                             Noted
                                        Description    Missing           Missing     Sufficient
  65007
  64835
  64644           X
  64622           X
  64630                        X                           X                            X
  64771                        X                                                        X
  64901                        X                                                        X
  64894
  64928
J2009002083
J2009004576                    X            X                                           X
J2009001994
J2009003409                    X            X                               X           X
J2009001936
J2009004574
J2009003200                    X            X              X                X           X
J2009001770
J2009015810       X                                                                                     XX
J2009015814       X                                                                                     XX
  Totals          62           89           65             46              12           85        No approval
                                                                                                    (X) (19)

                                                                                                  Not Approved
                                                                                                   at the Proper
                                                                                                  Level (XX) (7)




                                              39

40

Defense Finance and Accounting Service Columbus
Comments




                          DEFENSE FINANC E AND ACCOUNTING SERV IC E
                                            P .O. BOX 182317
                                        COLUMBUS, OHIO 43218-2317




      DFAS-JB/CO                                                                       SEI - 11011 '

      MEMORANDUM FOR PROGRAM DIRECTOR, DEPARTMENT OF DEFENSE
                       PA YMENTS AND ACCOUNT ING OPERATIONS

      SUBJECT: Management Comments to the Department of Defense Inspector General Draft
               Audit Report, " Defi ciencies in Journal Vouchers that AfTected the FY 2009 Air
               Force General Fund Statement of Budgetary Resources," Project Number 02010·
                  DOOOFD-008S.000, dated August 2, 20 I I


             This memorandum addresses the recommendations made in the subject report to the
      Defense Finance and Accounting Service (OF AS) Columbus. Thank you for the opportunity to
      respond 10 the draft report and recommendations, it is important to begin with a history of the Air
      Force and OF AS journal voucher environment.

             lournal vouchers are an important accounting tool to record transactions not yet in the
                                    Click to add JPEG file
      accounting records and to make corrections, In all cases, the journal vouchers should be
      accompanied by clear explanations, supporting documentation, and management approvals. The
      legacy environment of non·integrated systems drives the need fo r many of the journal vouchers
      referenced in the report.

              In the past eight years, the Air force and Df AS have reduced the nced fo r journal
      vouchers. With implementation of the new Air Force General Ledger (General Accounting and
      Finance System - Rehost) in Fiscal Year 2004, approximate ly 15,500 journal vouchers were
      processed. By Fi scal Year 2010, the number declined to approximate ly 4,000, a 74 percent
      reduction, as system enhancements to interface appropriation data, prior year obligation
      adj ustments, and contract pay accruals were implemented. During the same period, we have
      seen systemic interfaces of accounting transactions, which negate the need for journal vouchers,
      grow from about 1,500 annually to almost 7,900 in Fiscal Year 20 10.

              DF AS Columbus will contin ue the trend to reduce journal vouchers whi le strengthening
      journal voucher discipli ne in areas such as abnonnal balances, supporting materials, and
      management approvals. The Columbus staff has incorporated best practices with proactive
      reconci liat ions of abnonnal balances and cataloging explanations and support ing documentation
      for recurring j ournal vouchers.




                                                www 4111 . mil
                                          Your FinancIal Partner 0 WOI'k




                                                                      41
Defense Finance and Accounting Service Columbus
Comments




             OU f   management res;lpio nii,e. to. th.e. aiuiidiii.t ii,eiicilo.m
                                                                                .m
                                                                                 . eniid.aiit.ioiin.'.i., .a.t1.aiichiie.diio. FO
                                                                                                                                . ., ."d.diiiiti,ional
      infonnation, please contact .




                                                                               Jonathan Witter
                                                                               Director, OF AS Columbus

      Attachment:
      As staled




                                                Click to add JPEG file




                                                                               2




                                                                                                 42
Defense Finance and Accounting Service Columbus
Comments




          Management Co mmen ts to Department of Defense Inspector General Draft Report,
         "Deficiencies in Journal Vouch ers that Affected the FY 2009 Air Force Gene ra l Fund
         Statement of Budgetary Resources," Project Number D2010-DOOOFD-008S.000, dated
                                             August 2, 2011


      A We recommend that the Director, Defense Finance and Accounting Service Columbus:

      Reco mm endation A. I : Implement accounting procedures required by the "000 Financial
      Management Regulation," volume 6A, chapter 2, paragraph 020204.8 ., for each of the forced
      journal voucher adjustments discussed in this report . Those procedures should require that:

       a. all general ledger and other associated financial balances that require supporting subsidiary
          records are reconci led to those records :
       b. unreconciled differences are reso lved by identifying spec ific reconciling transactions to
          support appropriate journal voucher adjustments; and
       c. DF AS coordinate with Air Force entities when the Air Force maintains the original source
          documents or transactions that require research to reconcile the balances.

      C urrent Management Comments: Concur. The Director of Defense Finance and Accounting
      Service (OF AS) Colwnbus established a team to review and improve Air Force journal vouchers.
      Drawing from best practices, standard operating procedures were implemented for reconciling
      abnormal balances in February 2011. Details are provided to the Air Force monthly for research
      and resolution.               Click to add JPEG file
      Hi storically, OFAS prepared a small number of journal vouchers at fi scal yearend to resolve out
      of balances when Air Force persolUlel and source documents were unavailable; e.g., balancing of
      reimbursable programs. OF AS Col umbus prepared a Memorandum of Agreement between the
      Air Force and OFAS defining the methodology and authori ty for DFAS to prepare General Fund
      Journal Vouchers for unfilled orders and reimbursable obl igations in the absence of supporting
      detail transactions. We expect the signed agreement to be in place for Fiscal Year 2011 fiscal
      yearend .

      Unlillegacy processes are corrected, OFAS Columbus will continue to post appropriate
      accounting transactions to balance unexpended appropriation adjustments. We will continue to
      reduce the amount of unexpended appropriations variance by identifyi ng the root causes to
      correct or support the adjustment.

      As req uired by the 000 FMR. OF AS·Columbus will continue to record buyer side adjustments
      to match seller side data on the Financial Statements. Until such time as field accounting
      systems can capture elimi nation data. DFAS will continue to work with the Air Force and their
      customers in identifying proper trading partner amounts.

      The audit report identifies 1,43 7 journal vouchers that were processed to make di sbursements
      and collections for Air Force appropriations match U.S. Treasury. BegilUling FY 2012, we will
      use details from the Columbus Cash Accountability System (CCAS) reconciliation tool to
      provide the required voucher detail transactions to support undistributed balances and N's.
      Estima ted Com pletion Date: February 1,2012




                                                                   43
Defense Finance and Accounting Service Columbus
Comments




      Recomm endation A.2 : Implement the accounting process required by the "DoD Financial
      Management Regulation," volume 3, chapter 2, paragraph 100201.D.,which requires that before
      preparing journal vouchers by automated programming routines to close fiscal year-end
      balances, OFAS accountants research and adjust unexpected and abnonnal balances for expi ring
      and cance li ng appropriated funds.

      Current Management Comments: Concur. As noted above, standard operating procedures
      were implemented in February 201 1 to research abnonnal balances monthly and advise the Air
      Force. DFAS Columbus currently reviews and analyzes abnonnal balances on the Year End
      Closing (2108) report, the Appropriations Status by FY Program and Subaccounts (1002) report,
      Statement of Budgetary Resources (133) report and trial balances. A management review
      capturing unexpected or abnonnal amounts in cancelling years will be analyzed monthly.

      Estim ated Comnletion I)ate: February 1,20 12


      B. We recommend that the Director, Defense Finance and Accounting Service Columbus:

      Recomm endation 8 .1: Modify the standard journal voucher template, with narrative prompts to
      ensure that journal voucher documentat ion include :

       a. a clear description explaining the reason for the journal voucher that demonstrates that the
                                     Click to add JPEG file
          journal voucher is proper and accurate;
       b. a clear indication of the calculation methodology used in determining the journal voucher
          amounts;
       c. a narrative explanation for correcting journal vouchers that includes comments about why
          the original entry is incorrect and why the correcting entry is more accurate; and
       d. adequate references to supporting documentation, incl uding specific identification of
          documents, their location, and a point of contract.

      C urrent Managem ent Comm ents: Concur. In June 20 II , OFAS Columbus created a catalog
      of standardi 7.ed narratives that comply with the 000 Financial Management Regulation and
      assist accountants in providing a complete explanation, preparation methodology. and standard
      documentation with the journal vouchers.

      Estimated Comnletion Date: This recommendation is considered closed.

      Recomm endation R.2: Requi re a documented reconciliation between the systems at fiscal year
      end and explanation of differences that exi st between general ledger accounts.

      C urrent Management Comments: Concur. During the audit, OFAS Columbus identified the
      cause for $4.9 Bill ion of the $5 Bill ion difference identified by auditors. Transactions unrelated
      to the reconciliation were inadvertently included in the file provided to the auditors.
      Additionally, a manual reconciliation between the GAFS-R trial balances and OORS trial
      balances will be performed.

      Estimated Completion Date: February 1,2012


                                                        2




                                                                     44
Defense Finance and Accounting Service Columbus
Comments
                                                                                                               Final Report
                                                                                                                Reference




      C. We recommend that the Director, Defense Finance and Accounting Service Columbus:

      Recommendation C.l: Eliminate the "Auto-Approval Process" routine in the General
      Accounting Finance System-Rehost system to ensure that each journal voucher posted into the
      accounting system bears evidence of actual supervisory review and approval.

      Current Management Comments: Partially Concur. Despite DFAS clarifications, the auditors
      have mischaracterized thousands of system generated adjustments as journal vouchers. The
      systemic characteristics, categories, and processes for these transactions, to include the complete
      transaction table from OAFS-R, confonn to the United Slates Standard General Ledger (USSGL)
      transaction library mapping. OFAS Policy and Perfonnance Staff reviewed these system
      generated adjustments and concluded they are not journal vouchers. They 8re neither to adjust
      for errors identified during the report review process nor to record accounting entries that, due to
      system limitation or timing differences, have not been otherwise recorded. TIley merely adjust
      data already in the system under predetennined accounting rules.

      Working within legacy accounting system constraints, OF AS and the Air Force will continue to
      use the journal voucher module within GAFS-R to process transactions as pre-closing,
      reestablishments, and Depot Maintenance entries and reduce the need for manual journal
      vouchers. It is not cost effective to revise the journal voucher module in GAFS-R to relabel
      these transactions. Howevcr, we have devcloped a mass approval memorandum for these
      systemic adjustments since they are recorded in the automated journal voucher log for audit trail
      purposes. Additionally, the "Auto-Approval Process" for MOCAS Accrual entries will be
                                    Click to add JPEG file
      removed and entries will undergo manual supervisory review.

      Es timated Comnlet ion nate: This recommendation is considered closed.

      Recom mendati on C.2: Verify that the Director for Accounting and Finance includes all system          Revised.


      prepared journal vouchers in the required review of journal vouchers within 10 workdays after
      financial reports are prepared to confirm that approval thresholds were met.

      C urrent Management Comments: Partially Concur. As noted above, the system generated
      and approved adjustments have predefined characteristics, categories, and processes that
      confonn to USSGL and the DoDFMR. The adjustments are not journal vouchers and do not
      require an approval. They are labeled as journal vouchers strictly because of limitations in the
      legacy accounting systems. OFAS Policy and Perfonnance Management concluded these
      adjustments were supported by documentation, reliable system logic, and process.

      E!Jt imated Completion Date: This recommendation is considered closed.




                                                       3




                                                                   45
